CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33 and in compliance with 28 U.S. C. ยง 1746,
I hereby certify that this Petition For Writ Of Certiorari to the U.S. Supreme
Court, dated September 24, 2019, complies with the type-volume limitation.
According to Microsoft Word, the Petition contains 5907 words and has been
prepared in a proportionally spaced typeface using Century Schoolbook font in
12 point size.

Dated this 24th day of September 2019,

Veronica W. Ogunsula, P o Se
9801 Apollo Drive, #633
Largo, Maryland 20792
240-486-1427

